         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report



       EPA Could Improve Physical
       Access and Service
       Continuity/Contingency Controls
       for Financial and Mixed-Financial
       Systems Located at its Research
       Triangle Park Campus
       Report No. 2006-P-00005

       December 14, 2005
                        U.S. Environmental Protection Agency                                            2006-P-00005

                                                                                                    December 14, 2005

                        Office of Inspector General


                        At a Glance 

                                                                            Catalyst for Improving the Environment


Why We Did This Review             EPA Could Improve Physical Access and
We sought to determine             Service Continuity/Contingency Controls for
whether the U.S.                   Financial and Mixed-Financial Systems Located
Environmental Protection
Agency’s (EPA) current             at its Research Triangle Park Campus
physical access and service
continuity/contingency              What KPMG Found
controls for selective
applications at the Research       Physical Access. Controls needed to be improved in areas such as visitor access
Triangle Park (RTP) campus
                                   to facilities, use of contractor access badges, and general physical access to the
adhere to Federal and EPA
guidelines.                        National Computer Center (NCC), computer rooms outside the NCC, and media
                                   storage rooms.
Background
                                   Service Continuity/Contingency. Controls needed to be improved in areas such
The Office of Inspector            as completing a Business Impact Analysis, application contingency plans,
General (OIG) contracted with      authorizing to move backup data between key facilities, and environmental
KPMG, LLP, to audit physical       controls.
access controls and service
continuity/contingency             In many cases, EPA has in place compensating controls that help reduce the risk
planning controls for select       of the above issues. However, KPMG believes that controls can be improved to
financial and mixed-financial      further reduce the risks.
systems hosted at EPA’s RTP
campus. Physical access             What KPMG Recommends
controls protect EPA’s
resources from unauthorized        KPMG recommends that EPA
access, theft, or destruction.
                                     •	 Improve controls, processes, and procedures related to physical access to
Service continuity/
                                        the RTP campus and associated facilities.
contingency controls ensure
that EPA can continue                •	 Improve controls, processes, and procedures related to moving tape
operations of critical financial        backups between key facilities.
and mixed-financial                  •	 Provide additional training regarding physical access and service 

applications should an outage           continuity planning. 

occur.                               •	 Revisit the service continuity strategies for key applications to ensure that
                                        all necessary recovery strategies and efforts are ranked in terms of
For further information,
contact our Office of                   priority, then developed, documented, implemented, and tested.
Congressional and Public             •	 Improve environmental controls at key RTP facilities.
Liaison at (202) 566-2391.

To view the full report,
click on the following link:

www.epa.gov/oig/reports/2006/
20051214-2006-P-00005.pdf
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460


                                                                                   OFFICE OF 

                                                                              INSPECTOR GENERAL




                                     December 14, 2005

MEMORANDUM

SUBJECT:             EPA Could Improve Physical Access and Service Continuity/Contingency
                     Controls for Financial and Mixed-Financial Systems Located at its
                     Research Triangle Park Campus
                     Report No. 2006-P-00005

FROM:                Rudolph M. Brevard /s/
                     Director, Information Technology Audits

TO:                  Kimberly T. Nelson
                     Assistant Administrator for Environmental Information
                       and Chief Information Officer

                     Luis A. Luna
                     Assistant Administrator for Administration and
                       Resources Management

                     Lyons Gray
                     Chief Financial Officer

                     George M. Gray, Ph.D.
                     Assistant Administrator for Research
                       and Development

                     Thomas P. Dunne
                     Acting Assistant Administrator for Solid Waste
                       and Emergency Response


This is the final report on physical access and service contingency/continuity controls audit
conducted by KPMG, LLP, on behalf of the Office of Inspector General (OIG) of the U.S.
Environmental Protection Agency (EPA). This audit report contains findings that describe areas
of improvements that KPMG consultants have identified and corrective actions that KPMG
recommends.
                                                2



This audit report represents the opinion of KPMG and the findings in this audit report do not
necessarily represent the final EPA position. EPA managers, in accordance with established
EPA audit resolution procedures, will make final determinations on matters in this audit report.

The OIG reviewed KPMG’s report and related documentation and inquired of their
representatives and found no instances where KPMG did not comply, in all material respects,
with Generally Accepted Government Auditing Standards.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective action
plan for agreed upon actions, including milestone dates. We have no objection to further release
of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at (202) 566-0893,
or Charles Dade, Assignment Manager, at (202) 566-2575.
Final Audit Report




EPA Could Improve Physical Access
and Service Continuity/Contingency
Controls for Financial and Mixed-
Financial Systems Located at its
Research Triangle Park Campus

Report No. 2006-P-00005

December 14, 2005
Key Abbreviations Used in this Report


BIA          Business Impact Analysis

CIO          Chief Information Officer

DRS          Disaster Recovery Services

EPA          Environmental Protection Agency

FISMA        Federal Information Security Management Act

FISCAM       Federal Information Systems Control Audit Manual

NCC          National Computer Center

NIST         National Institute of Standards and Technology

OARM         Office of Administration and Resources and Management

OCFO         Office of the Chief Financial Officer

OEI          Office of Environmental Information

OIG          Office of Inspector General

OMB          Office of Management and Budget

OTOP         Office of Technology Operations and Planning

RTP          Research Triangle Park

SP           Special Publication
                                              Table of Contents 

Chapters

1 Overview .................................................................................................................... 3

      Background ..........................................................................................................................................................3

      Objectives and Scope ...........................................................................................................................................3

      Methodology ........................................................................................................................................................4

      Results in Brief .....................................................................................................................................................5

2 Physical Access ........................................................................................................ 6

      Contractor Access Badges ...................................................................................................................................6

      NCC Data Center Door Alarms...........................................................................................................................8

      Evacuation Re-Entry ............................................................................................................................................8

      Computer Room Sign-in Procedures....................................................................................................................9

      RTP Campus Visitor Identification ......................................................................................................................9

3 Service Continuity/Contingency Planning ............................................................ 12

      Business Impact Analysis ...................................................................................................................................12

      Application Contingency Planning ....................................................................................................................13

      Authorization to Move Tapes to the Alternate Storage Site ...............................................................................17

      Local Alternate Processing Site Access .............................................................................................................17

      Environmental Controls .....................................................................................................................................18



Appendices

A      Criteria .................................................................................................................. 20 

B      Applications Reviewed........................................................................................ 23

C      Distribution........................................................................................................... 27



                                        EPA's Response to the Draft Report

D      Office of Environmental Information.................................................................. 28 

E     Office of Administration and Resources Management..................................... 32 

F     Office of Research and Development................................................................ 37

G     Office of Solid Waste and Emergency Response ............................................. 41

H      Office of the Chief Financial Officer................................................................... 43 





                                                                                   2

                                     Chapter 1
                                         Overview
Background

In support of the Environmental Protection Agency (EPA) Office of Inspector General (OIG),
KPMG audited physical access controls and service contingency/continuity planning controls for
select financial and mixed-financial applications hosted at EPA’s Research Triangle Park (RTP)
Campus. The RTP Campus is located in the greater Raleigh/Durham, North Carolina area and is
a major EPA center for air pollution research and regulation. RTP supports EPA’s mission by
working towards a cleaner environment by concentrating on three major functions:
administration and management, regulations, and research and development.

The main RTP campus facility consists of seven buildings: A, B, C, D, E, H, and the National
Computing Center (NCC) and two associated off-campus facilities: the local alternate processing
site and the local storage facility. NCC opened in January 2002 and provides large-scale
computing services for EPA nationwide, including support for regulatory program offices and
administrative activities, as well as advanced super-computing for scientific research in air
quality protection and other environmental studies. While the major computing activities occur
at the NCC, other buildings have smaller computer and communication rooms that host financial
and mixed financial applications that connect to the campus’ network.


Objectives and Scope

The objectives of our review were focused on three primary areas:

•	 Gather the inventory of financial and mixed financial applications hosted at the RTP facility
   to guide our review;

•	 Evaluate physical security controls in accordance with relevant Federal and EPA criteria and
   best practices; and

•	 Evaluate service continuity/contingency controls in accordance with relevant Federal and EPA
   criteria and best practices.

For the service continuity/contingency testing portion of the audit, we initially received from
EPA a listing of 33 financial and mixed-financial applications residing at the RTP campus. We
discussed and validated these applications with EPA RTP officials to ensure the accuracy of the
listing. We then selected a judgmental sample of 12 applications for detailed review based
primarily on whether the Agency indicated, within EPA’s Automated Security Self-Evaluation
and Remediation Tracking (ASSERT), that the applications had a contingency plan and/or the
                                                3

criticality of the applications to EPA. EPA uses ASSERT to centrally track remediation of
weaknesses associated with information technology systems. ASSERT serves as the Agency’s
official record for Plan of Actions and Milestones activities. Appendix B contains the list of
applications included in the scope of our audit.

Our review did not include an evaluation of financial and mixed-financial applications that did
not have service contingency/continuity plans in place. Additionally, our review did not include
the assessment of logical access controls for EPA systems or applications.


Methodology

Our evaluation methodology was derived primarily from the Government Accountability
Office’s (GAO’s) Federal Information Systems Control Audit Manual (FISCAM). FISCAM is
designed to provide guidance to information technology auditors on the scope of issues that
generally should be considered in any review of controls over the integrity, confidentiality, and
availability of computerized data associated with Federal systems and applications. We
specifically addressed the following two FISCAM control areas:

•	 Access control. These controls limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and
   disclosure. Examples of tests we performed under this control area included interviewing
   data center managers and personnel, reviewing data center access listings, observing data
   center physical access security controls, and observing data center environmental controls. In
   addition, we conducted tests over the adequacy of physical access security controls for entry
   onto the RTP campus and into RTP facilities.

•	 Service continuity. These controls involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur. Examples
   of tests we performed under this control area included interviewing application owners,
   reviewing application contingency plans, and reviewing data backup and recovery processes.

Additionally, we supplemented our FISCAM based approach with relevant EPA policy
requirements and relevant guidance from the National Institute of Standards and Technology
(NIST). Appendix A contains the complete list of applicable criteria. Our audit was conducted
in accordance with Generally Accepted Government Auditing Standards (GAGAS).




                                                 4

Results in Brief

In summary, we noted that although EPA has many controls in place regarding physical access
and service continuity/contingency planning, controls can be improved. For example:

•	 Physical access. We noted that controls needed to be improved in areas such as visitor access
   to facilities, use of contractor access badges, and general physical access to the National
   Computer Center (NCC), computer rooms outside the NCC, and media storage rooms.

•	 Service continuity. We noted that controls needed to be improved in areas such as the
   completion of a Business Impact Analysis (BIA), application contingency plans,
   authorization to move backup data between key facilities, and environmental controls.

In many cases, EPA has in place compensating controls that help reduce the risks in the above
areas. However, we believe that controls can be improved to further reduce the risks. In this
report, we have provided detailed recommendations for each identified issue.

In general, we recommend that EPA:

•	 Improve controls, processes, and procedures related to physical access to the NCC, media
   storage rooms, server rooms, and associated facilities;

•	 Improve controls, processes, and procedures related to the movement of tape backups
   between key facilities;

•	 Provide additional training regarding physical access and service continuity controls;

•	 Revisit the service continuity strategies for key applications to ensure that all necessary
   recovery strategies and efforts are documented, implemented, and tested; and

•	 Improve environmental controls at key RTP facilities.




                                                 5

                                     Chapter 2
                                  Physical Access
Access controls should provide reasonable assurance that information technology resources (data
files, application programs, and computer-related facilities and equipment) are protected against
unauthorized modification, disclosure, loss, or impairment. These controls include physical
controls, such as keeping computers in locked rooms to limit physical access, and logical
controls, such as security software programs designed to prevent or detect unauthorized access to
sensitive files.

KPMG conducted a review of physical access controls surrounding select information
technology assets within the RTP campus. Specifically, we reviewed the physical security of
assets within the NCC, computer rooms outside of the NCC, and media storage rooms (specific
names of the local storage and processing sites are not provided for security reasons). As
previously noted, our review did not assess logical security controls over EPA systems or
applications. Although EPA had many physical access controls in place, we noted conditions
associated in the following areas, which increased the risks to the RTP physical security
environment:

•   Contractor Access Badges
•   NCC Data Center Door Alarms
•   Evacuation Re-entry
•   Computer Room Sign-in Procedures
•   RTP Campus Visitor Identification

Additional details on each of these areas, as well as related recommendations, follow.


Contractor Access Badges

Per inspection, 29 of the 144 (20%) of the NCC data center access badges we reviewed were
either assigned to temporary contractors or to temporary EPA staff. This issue occurred because
NCC has many contractors that require access to the data center 24 hours per day in case of
system emergencies. We inquired about assigning badges to specific contractor personnel and
NCC officials informed us that this would be difficult to implement because of the need for
contractor maintenance support during emergencies. In these situations, the specifically badged
contractor may not be available and another contractor from the same company may arrive to
perform the required maintenance support. In addition, similarly to the maintenance support
contractors, the janitorial service contractors use generic badges to access the data center to
perform routine cleaning services. Therefore, management felt that assigning the badges to
specific contractors was not practical.



                                                6

Subsequent to our testing, we met with management officials to discuss this issue, and
management identified several compensating controls, such as the data center is staffed
continuously, entrances are monitored by a video surveillance system, and NCC officials
perform a limited badge reconciliation review. Management provided documentation supporting
the NCC’s badge reconciliation process. However, we reviewed the badge reconciliation
documentation and noted that it was not detailed enough to sufficiently reconcile the badges.
Specifically, we noted that the badge reconciliation only accounted for the total number of
badges opposed to being used as a control to ensure that badges are issued to authorized
contractors. Also, there was no documentation to support that the NCC maintained a valid
contractor personnel roster listing authorized employees from the contracting company and that
these contractors had appropriate background security screenings. Furthermore, management
provided no evidence to support that the NCC implemented controls to ensure that contractors
without current and appropriate background security screenings are escorted while inside the
NCC.

Although management has some compensating controls in place, we believe management should
enhance controls by enforcing individual accountability for access to the data center. By not
enforcing accountability there is an increased risk that inappropriate access may be gained to a
sensitive processing area. Also, should any damage result from the unauthorized access, it
would be difficult and time consuming for the NCC to identify the perpetrator and possibly limit
NCC’s ability to recoup damages and/or take appropriate legal action.

Recommendations:

We recommend that the Director, Office of Technology Operations and Planning (OTOP)
implement policies and controls to ensure that:

1)	 All contractors who have access to the data center have individually identifiable badges.

2)	 More comprehensive periodic reviews of contractor access to the data center are performed,
    and badge access is adjusted as necessary.

However, if the Director of OTOP determines that the current process is sufficient and accepts
the risk, then OTOP should:

3) Obtain a complete access roster from the contractor companies (e.g., maintenance support
   and the janitorial services contractor) with the employee names and the current status of the
   employee background security screening.

4)	 Implement a procedure where only contractors with current and the appropriate background
    security screenings are allowed unescorted access in the NCC.

5)	 Implement a procedure to ensure that contractor personnel have appointments and are on
    their company’s access roster before issuing them temporary badges to the NCC.


                                                7

6)	 Implement a procedure where contractors without current and appropriate background
    security screenings are escorted while inside the NCC.

Agency’s Response and KPMG’s Evaluation:

Management agrees there are 29 temporary contractor badges that not assigned to specific
individuals. In addition, management agrees that the NCC should conduct more frequent
reviews of contractor access to the data center. However, management disagrees with some
elements of this finding and believes that compensating controls are in place to mitigate some of
the risk. As noted earlier, KPMG believes that although some compensating controls are in
place, additional accountability over contractors could be obtained by requiring contractors to
possess individually identifiable access badges. Subsequent to the completion of fieldwork, we
meet with EPA officials to discuss this finding. Based on our discussions and review of
additional documentation, we modified this finding where appropriate.


NCC Data Center Door Alarms

Per inspection and observation, we noted that the NCC data center doors do not emit an audible
alarm if a door is open for an extended period. By not having an audible alarm on the data center
doors, the data center employees would not be aware of potential security breaches until a
security guard in building C contacts them. In this regard, equipment could be stolen or
intentionally damaged prior to any data center personnel being alerted of the breach. We noted
some compensating controls for this issue, such as: 1) the NCC data center door alarms are
monitored centrally by the main guard facility in building C, 2) the doors are continuously
monitored by a video surveillance system, and 3) the data center is constantly staffed. Although
these compensating mitigate a portion of this risk controls, the lack of audible door alarms
elevate the risk that unauthorized individuals could access sensitive NCC areas.

Recommendation:

7)	 We recommend that the Director of OTOP install audible alarms on all key access points to
    the NCC data center that would promptly alert NCC security personnel should a door be left
    open for a designated period of time.

Agency’s Response and KPMG’s Evaluation:

Management concurs with this finding.


Evacuation Re-Entry

Per inspection and observation, we noted that there is no apparent evidence of documented
policies or procedures regarding reentry requirements in the event of a personnel emergency
evacuation from RTP. By not having policy and procedures for re-entry, there is an increased
                                                8
risk of unauthorized access by large numbers of personnel returning after an evacuation,
particularly if pre-planned entry points are not designated and monitored. This control weakness
increases the risk of unauthorized access to other RTP campus facilities and computer
equipment, because these areas lack implemented compensating controls present at the NCC.

Recommendations:

8)	 We recommend that the Director of the Office of Administration and Resources Management
    (OARM) at RTP implement detailed policies and procedures regarding the re-entry of staff to
    the RTP campus and buildings after an event that would trigger an emergency evacuation.

Agency’s Response and KPMG’s Evaluation:

Management concurs with the recommendation. Management officials stated that procedures are
currently being written requiring all employees to badge in upon reentry into the buildings after
an emergency evacuation.


Computer Room Sign-in Procedures

We noted that there is no sign-in sheet for visitors to other computer rooms outside the NCC or
to several media storage rooms. Access to the rooms is currently logged by the badge access
card system, but the system does not log visitor access. A sign-in sheet is a key operational
control because it serves as a visitor registry, providing auditable documentation containing the
date of visit, the visitor’s name, company, purpose of visit, local employee escorting the visitor,
time of arrival, and time of departure. This documentation provides a means for management to
assign accountability to the employee escorting the visitor and to each individual for actions
occurring in the computer room.

Generally, this issue existed because the computer rooms outside of the NCC and media storage
rooms were not originally designed as computing facilities and do not generally have visitors.
Subsequent to the completion of fieldwork, we met with EPA officials to discuss this finding.
Based on our discussions, management took immediate actions to correct this deficiency and
implemented a sign-in sheet. We subsequently reviewed management’s implementation of the
control and found it to be sufficient.


RTP Campus Visitor Identification

Per inspection and observation, we noted the following issues that, if corrected, could help
enhance the physical security controls at the RTP campus:

•	 Perimeter gate security guards did not consistently stop vehicles with a permanent (non
   visitor) parking pass and check the vehicle occupants’ identification. Rather, the perimeter
   gate security guards place assurance in the removable vehicle-parking pass.
                                                 9
•	 Perimeter gate security guards did not inspect the identification of all vehicle occupants for
      vehicles with a visitor parking pass. We noted on several occasions that the guards inspected
      the identification of the driver only and not the passenger. Additionally, our test, of the
      “identification verification” process, revealed that a vehicle was allowed onto the RTP
      campus without the occupants’ identification being properly checked.

•	 Internal building security guards did not consistently verify RTP visitor’s identification.
      Once a visitor has passed through the security screening station, they are allowed to approach
      the front desk to sign the visitor log and state their purpose, which will then be verified by the
      security officer. However, our walkthrough determined that the security officer did not
      consistently verify or check identification.

•	 Unmanned entry points are not properly controlled. On several occasions at different
      locations, we were able to gain access through unguarded side doors controlled by the badge
      access card and video surveillance systems by following behind EPA employees who gained
      authorized building access “piggybacking.”

We noted that these issues occurred because the RTP security guards are not required to verify
the identification of each vehicle occupant, and that security guards are not verifying permanent
parking decals assigned to RTP employees. Also, the security guards are not consistently
following procedures for verifying visitor’s identification, and access to other campus buildings
and the NCC is not limited to the main entrance. Therefore, employees and contractors may
enter through doors with no security guard presence. Although compensating controls exist,
such as a security guard presence and 24 hour monitoring of campus entry and exit points for
vehicles, there is an increased risk that unauthorized individuals may gain inappropriate access to
sensitive campus areas.

Recommendations:

We recommend that the Director of OARM at RTP:

9)	     Issue guidance to remind the security guards at RTP campus entrances to randomly inspect
        the identification of all occupants in vehicles entering the campus.

10)	 Ensure that guards randomly check that the permanently assigned parking passes
     correspond to the appropriate individual.

11)	 Conduct periodic checks to ensure that procedures are consistently followed for verifying
     visitor identification.

12)	 Provide, periodically, additional security training to other RTP program offices’
     employees/contractors addressing good physical security practices. The training should
     include lessons on challenging persons whom are attempting to enter the building without a
     RTP badge, not allowing individuals to piggyback through unguarded doors, other security
     concerns.
                                                    10

Agency’s Response and KPMG’s Evaluation:

Management concurred with these findings and indicated that they are taking steps to improve
physical access security. Management also indicated that various checks have been conducted
during conferences held at RTP and coordination has been done to inform personnel of a
heightened security posture and asking them to not allow others to “piggyback” into the building
once one person badges through a door.




                                               11

                                     Chapter 3
            Service Continuity/Contingency Planning
Losing the capability to process, retrieve, and protect information maintained electronically can
significantly affect an agency’s ability to accomplish its mission. For this reason, an agency
should have: 1) procedures in place to protect information resources and minimize the risk of
unplanned interruptions and 2) a plan to recover critical operations should interruptions occur.
These plans should consider the activities performed at general support facilities, such as data
processing centers and telecommunications facilities, as well as the activities performed by users
of specific applications. To determine whether recovery plans will work as intended, they should
be tested periodically in disaster simulation exercises, understood by personnel with key
responsibilities, and supported by management and staff throughout the organization.

KPMG conducted a review of service continuity/contingency planning controls surrounding
select financial and mix-financial applications located at the RTP campus. We noted that the
Chief Information Officer (CIO) issues high-level policy and guidance regarding EPA’s
contingency planning strategies. Program offices are responsible for implementing controls to
comply with the CIO policy and guidance, such as contingency plan development and testing.
The NCC provides service continuity services for many mission critical EPA applications
through the Disaster Recovery Services (DRS) program, which is a fee for service arrangement
through EPA’s working capital fund. In addition, program offices that do not subscribe their
applications to the DRS are required to implement full contingency planning strategies for their
applications. Therefore, program offices should coordinate closely with NCC officials, as NCC
hosts many of the financial and mixed-financial applications.

During our audit, we noted conditions associated with the following areas which increased the
risks to EPA’s service continuity/contingency planning strategy:

•   Business Impact Analysis (BIA)
•   Application Contingency Planning
•   Authorization to Move Tapes to the Alternate Storage Facility
•   Local Alternate Processing Site Access
•   Environmental Controls


Business Impact Analysis

We noted a formal BIA for the NCC has not been conducted to address the identification and
prioritization of critical data and operations for major applications. Consequently, the NCC does
not have a BIA, approved by senior leadership that reflects the current information technology
processing conditions. NCC is critical because it provides large-scale computing services for
EPA nationwide, including financial reporting applications. Additionally, the NCC supports

                                               12
EPA program offices by providing supercomputing resources for research in its environmental
studies.

Although EPA established formal policies, procedures, and guidance for developing BIAs, the
NCC did not complete the analysis. Without performing a BIA, there are risks that EPA may not
be fully characterizing the necessary system requirements, processes, and interdependencies for
its information technology contingency planning and business continuity strategies. Such risks
could have a significant impact should a major outage occur.

Recommendations:

We recommend that the Director of the OTOP:

13)	 Reiterate the importance of completing the BIA to system owners through existing training
     vehicles and established policies, procedures, and guidance.

14)	 Conduct a BIA at the NCC that is consistent with the National Institute of Standards and
     Technology (NIST) Special Publication (SP) 800-34, and utilize the results to conduct a
     forum with the appropriate EPA program offices leadership to facilitate a decision-making
     process on the program offices’ behalf on updating and/or modifying their current
     contingency planning and business continuity strategies.

Agency’s Response and KPMG’s Evaluation:

Management agreed with the finding to conduct a BIA at the NCC. However, management did
not agree that additional training is necessary since the Agency has already documented the
requirement to conduct BIA and conducted contingency planning training at the 2004 Security
and Operations conference. However, during our testing, personnel we interviewed were not
aware of the policies, procedures, and guidance. As such, we believe additional efforts are
necessary to help ensure personnel are aware of the requirements and management’s
commitment to develop a BIA for the NCC.


Application Contingency Planning

Although, in some cases, the reviewed contingency plans contained many of the necessary
elements, eleven of the twelve plans did not fully comply with relevant Federal or EPA
requirements. We noted that the following areas needed improvement:

Applications Included in DRS:

We noted that for the applications included in DRS, the contingency plans did not consistently
identify all elements guided by NIST SP 800-34. For example:



                                               13

•	 The NCC DRS contingency plan for the Integrated Financial Management System (IFMS);
   Management and Accounting Reporting System (MARS); and the Combined Payroll
   Redistribution and Reporting System (CPARS), does not clearly identify the: 1) alternate
   processing procedures and 2) critical requirements for hardware, software,
   telecommunications, office facilities, and offices supplies. In addition, it was difficult to
   determine which steps in the plans related to the recovery of the three applications, nor had
   the plan been updated since PeoplePlus replaced the CPARS application. Finally, we noted
   that the contingency plan test results did not include definitive results regarding the recovery
   of the applications.

•	 The NCC contingency plan does not contain a section on reconstitution and returning to
   normal operations.

•	 The PeoplePlus contingency plan does not list primary and secondary contacts; although the
   contacts are included in the Critical Applications Disaster Recovery Plan. Furthermore,
   neither plan clearly specifies which of the two plans would be in operation should an outage
   occur.

Applications Not Included in DRS:

•	 We noted that the following applications, not subscribing to the NCC DRS program,
   contained contingency plan information in the application’s security plans:

   ¾	   Integrated Grants Management System (IGMS);
   ¾	   Travel Manager +;
   ¾	   Financial Data Warehouse (FDW);
   ¾	   Working Capital Fund (WCF); and
   ¾	   Bank Card.

However, the information was vague, incomplete, and/or inconsistent regarding some
contingency plan procedures. For example, the IGMS security plan contains a contingency
planning section that indicates how critical IGMS is to EPA, but it does not contain detailed
procedures for how the system would be recovered during an outage. In addition, the security
plans for Travel Manager +, FDW, WCF, and Bank Card do not document detailed steps to
recover application hardware, software, or telecommunications, and the contingency information
does not identify alternative processing locations for the applications.

In addition, for the applications that had separate contingency plans, the level of detail in these
plans was not consistent with Federal and EPA requirements. For example:

•	 The Budget Automation System (BAS) is not referenced in the Office of the Chief Financial
   Officer (OCFO), Office of Budget contingency plan. In addition, in reviewing the OCFO’s
   Annual Planning and Budget Division Disaster Preparedness and Recovery Guide - Budget
   Automation System, version six, we noted many incomplete elements. These incomplete
   elements included the emergency telephone list and listings of vendors, suppliers, and other
   service providers. Such inconsistencies and incomplete information can present significant
                                                 14

   challenges for EPA should a significant BAS outage occur, as some in the organization may
   believe that BAS has a well-documented recovery strategy, when in fact the planning efforts
   are inconsistent and incomplete.

•	 The Comprehensive Environmental Response, Compensation and Liability Information
   System (CERCLIS) contingency plan does not identify critical resources needed during an
   outage (e.g., personnel, telecommunications, and hardware and office facilities and supplies).
   In addition, the contingency plan’s recovery test does not address the recovery of the
   application. We were also unable to determine whether contracts are in place for the
   restoration of the application.

•	 The Office of Research and Development Management Information System (OMIS)
   contingency plan call tree contained only business phone numbers for essential personnel,
   and did not include the information that should be relayed to the personnel. In addition, we
   noted that the recovery operations section of the contingency plan did not adequately
   document the steps necessary to restore operations, and it did not document whether the
   contingency plan had been tested. Subsequent to our review, OMIS took immediate action to
   remedy these conditions.

These various issues appear to have occurred because of inconsistency in training for relevant
contingency planning officials. For example, for the applications that are not part of the DRS
program, EPA officials informed us that any contingency planning efforts and agreements are the
responsibility of the application owner, thereby increasing the possibility of developing and
implementing contingency plans and procedures that are inconsistent with relevant Federal and
EPA requirements.

These application contingency plan weaknesses are critical for EPA, because without
documenting the essential operations and supporting resources, management may not be able to:
1) predict the negative effects of lost data and interrupted operations and 2) determine how long
specific operations can be suspended or postponed. Additionally, without current and complete
application contingency plans, management may not be able to efficiently recover from
unplanned service interruptions.

Recommendations:

We recommend that the Director of OTOP:

15)	 Use existing training vehicles to remind all EPA application owners about the importance
     of: 1) developing application contingency plans/procedures in accordance with Federal and
     EPA requirements, 2) documenting test results, and 3) revising the contingency
     plans/procedures based on the test results.

16)	 Ensure that the NCC DRS contingency plan is updated and tested on an annual basis. The
     updated NCC DRS contingency plan should identify: 1) applicable recovery steps for
     IFMS, MARS, and PeoplePlus; 2) alternate processing procedures; 3) critical requirements;
     and 4) definitive test results regarding the recovery of all applications.
                                               15

17)	 Revisit the NCC contingency plan and ensure it contains a section on reconstitution and
     returning to normal operations.

We recommend that the Office of the Chief Financial Officer ensure that the:

18)	 Director, Office of Financial Services revises the PeoplePlus contingency plan to: 1)
     contain primary and secondary personnel information consistent with the Critical
     Applications Disaster Recovery Plan, and 2) clearly describe which plan takes precedence
     during a recovery process.

19)	 Director, Office of Financial Management revises contingency plans for all of their
     applications not subscribing to the NCC DRS plan (e.g., Financial Data Warehouse), in
     accordance with relevant Federal and EPA requirements.

20)	 Director, Office of Budget revises the BAS contingency plan to contain an emergency
     contact list and listings of vendors, suppliers and service providers.

We recommend that the Director of the Office of Solid Waste and Emergency Response:

21)	 Revisit CERCLIS contingency plan and ensure that it: 1) identifies critical resources; 2)
     ensures the recovery test addresses all elements of application recovery; and 3) specifies
     which contracts are in place for the restoration of the application.

Agency’s Response and KPMG’s Evaluation:

In general, all the affected program offices agreed with our findings and recommendations.
However, OEI requested that recommendations to correct the noted contingency plan
weaknesses be addressed to the applicable program office. Further, OEI disagreed with the
recommendation to analyze all contingency plan test results, adjust contingency plans and send a
“lessons learned” report to senior management. OEI also did not agree with the recommendation
to establish monitoring procedures to ensure that application contingency plans are tested at least
once every year, because OEI already has such a procedure in place and uses the ASSERT
system to track the status of contingency plan testing.

KPMG agrees that guidance is available to EPA program offices related to the development of
contingency plans. However, given that we identified inconsistent approaches within the
program offices for developing and testing contingency plans, we believe that additional
management emphasis and training is necessary.

Subsequent to the completion of fieldwork, management officials, in several cases, provided
additional documentation, such as updated contingency plans and details regarding EPA’s
contingency planning practices. KPMG inspected this information and where appropriate
modified this finding.


                                                16

Authorization to Move Tapes to the Alternate Storage Site

The alternate storage site serves as a temporary storage location for backup tapes being sent from
NCC to the backup tape storage vendor. We inspected the logs tracking the movement of
backup tapes between NCC and the alternate storage site and noted that there is no documented
authorization to move the tapes, although there are comparable logs tracking the movement of
backup tapes from the alternate storage site to tape store vendor.

According to RTP officials, the movement of backup tapes from the NCC to the alternate storage
site is an informal process, and there are only a few people involved in the process, which limits
the risk. For example, there is one primary person and one alternate person authorized to
approve the moving of tapes between the NCC and the alternate storage site. Consequently,
formal procedures for this process have not been developed. We recognize that the limited
number of people involved in this process reduces the risk. However, there is an increased risk
that accountability for the tapes may be lost if there is no documented authorization supporting
the movement of tapes.

Recommendation:

22) We recommend that the Director of OTOP implement a procedure and control whereby the
    backup tapes being sent from NCC to the alternate storage site have documented
    authorization for movement.

Agency’s Response and KPMG’s Evaluation:

Management concurs with the recommendation and indicated OEI will document procedures to
authorize movement of backup tapes from NCC to the alternate storage site.


Local Alternate Processing Site Access

The local alternate processing site is utilized as a continuity of operations facility for the NCC
data center and is located on the border of the RTP campus. Additionally, the site contains
research equipment and serves as a general warehouse. The NCC has one room designated as a
contingency facility for emergency situations, and this room is equipped with several operational
computers, telephones, and one television. However, we noted that the site lacks an active
security monitoring process, such as camera surveillance or security guards. The security
present at the facility consists of badge access card system, which is used to control entry.

EPA officials indicated that a previous physical security assessment categorized the facility as
low risk, therefore not requiring a strong security presence. Additionally, EPA officials
indicated that should an event occur that raises the threat level of the campus, additional guards
and security measures would be deployed at all facilities. The emergency response process for
the facility is dependant on the threat level to the campus, which is directed by the Department of
Homeland Security threat level. However, by not actively controlling access to the facility, there
                                                17

is an increased risk that unauthorized individuals may gain inappropriate access to a sensitive
area, especially during a continuity of exercise or actual continuity of operations activities.

Recommendation

23)      We recommend that the Director of the NCC coordinate with the Director of OARM at
         RTP to document the expected physical security controls for the local processing site in
         the event of an emergency and include these procedures in the National Computer
         Center’s contingency plan.

Agency’s Response KPMG’s Evaluation:

OEI concurs with the recommendation, and agreed to work with OARM to assess the risks, costs
and benefits to make a risk-based decision on additional controls. OARM responded by stating
that a Physical Security Assessment of the RTP main campus facility was performed in 2004,
which identified the facility as a “LOW Threat Level Facility.” Based on this finding, OARM
decided to mitigate this risk by including some of these corrections in a future lease agreement

KPMG recognizes EPA’s need to implement cost effective security controls to mitigate risks.
However, the acceptance of risks should be coordinated, documented, and approved by
appropriate senior Agency officials. As such, we believe that OARM’s rationale for accepting
the risks associated with the local processing site should be formally documented and
communicated to all affected Agency offices so that appropriate contingency planning activities
can occur. Based on discussions with Agency officials, we modified the recommendation.


Environmental Controls

KPMG noted examples where EPA environmental controls at key RTP facilities could be
improved:

•	 KPMG noted during the walkthrough of the NCC data center that food and drinks were
      allowed in the computer areas. This violates posted signs throughout the data center stating
      that eating and drinking are prohibited.

•	 KPMG noted, during the walkthrough of the computer rooms outside of the NCC, that
      emergency procedures were not posted in case of fire, plumbing leakage, or premature water
      release from the sprinklers. Additionally, during our walkthrough of another computer room,
      we observed a water stain from a previous leak on the ceiling tiles. We also noted that
      emergency water shut-off values and electric power sources were not easily identifiable.

It appears that these issues existed because: 1) EPA management officials have not fully
enforced the requirement of not having food and drinks in the NCC data center, and 2) EPA did
not develop and implement processes for these critical procedures for the computer rooms
outside of the NCC. One computer room was not originally designed to host computer

                                                  18

equipment; as such, water lines run through the room thereby increasing the risk of water
damage from a leak or burst pipe.

Allowing food and drink in the NCC data centers increases the risk that key processing
equipment or other materials, such as recovery plans and procedures, could be damaged by a
spill. In addition, if the appropriate EPA personnel are not aware of the emergency procedures
and can not easily locate the emergency water shut-off values and electrical power sources, EPA
personnel may not promptly respond to an emergency to protect the computer equipment in case
of a burst water pipe or plumbing leakage.

Subsequent to completing fieldwork, RTP personnel provided KPMG with additional
documentation regarding environmental controls over the computer rooms. Specifically, KPMG
was provided with documents containing bullet-point procedures for both fire and water
emergencies in the computer rooms and EPA OIG auditors observed these policies posted in the
computer rooms. Additionally, RTP personnel also provided work orders to identify the shut off
valves for the water and plumbing lines and for the installation of water detectors. EPA OIG
auditors inspected the computer rooms and verified that environmental controls existed.

Recommendations:

24) We recommend that the Director of OTOP should make a determination whether to enforce
    the posted notices regarding not having food and drinks in the NCC data center and remind
    employees of the policy. If management decides to accept the risk of allowing food and
    drinks in the data center, then the acceptance of the risk should be documented in the NCC
    security risk assessment.

Agency’s Response and KPMG’s Evaluation:

Management officials agree with our findings and recommendations. OARM at RTP disagreed
with implementing compensation controls such as having security guards perform visual
inspections of computer rooms. As such, OARM officials provided additional documentation
and details regarding its efforts to provide effective environmental controls over the computer
rooms. Where appropriate, we modified this finding.




                                               19

                                     Appendix A

                                          Criteria 

The following laws, requirements, and/or guidelines were used as criteria in guiding our review
of physical security and service continuity at RTP.

•	 The EPA Information Security Manual states that:

   ¾	 Physical security measures be in place to protect information systems against 

      unauthorized access, theft, or destruction. 


   ¾	 Continuity of support and/or contingency plans must be developed. Specifically, the
      manual requires that: 1) contingency and continuity of support plans should be reviewed
      and updated on an annual basis and in coordination with COOP planning efforts; 2)
      recovery plans should be developed for re-establishing a permanent, ongoing processing
      site; 3) the plans should be tested; 4) EPA should conduct training on the plan and its
      elements; 5) the plans should be documented; and 6) the plans should be periodically re
      tested and revised.

   ¾	 Food, smoke, heat, and excess moisture can damage equipment.

•	 The Federal Information Security Management Act (FISMA), issued as part of the E-
   Government Act of 2002, requires Federal agencies to provide information security
   protections commensurate with the risk and magnitude of the harm resulting from
   unauthorized access, use, disclosure, disruption, modification, or destruction of information
   collected or maintained by or on behalf of the agency. FISMA further requires Federal
   agencies to follow information security guidance issued by NIST.

•	 The Federal Manager’s Financial Integrity Act (FMFIA) requires Federal agencies to
   maintain accountability over assets.

•	 National Institute of Standards and Technology’s (NIST) Special Publication (SP) 800-12, An
   Introduction to Computer Security: The NIST Handbook guides that contingency planning
   should address all the resources needed to perform a function, regardless whether they
   directly relate to a computer. This will allow an organization to assign priorities to resources
   since not all elements of all resources are crucial to the critical functions.

•	 NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
   Technology Systems, guides that organizations should require users to identify themselves
   uniquely before being allowed to perform any actions on the system.

•	 NIST SP 800-34, Contingency Planning Guide for Information Technology Systems guides
   that:


                                                20

   ¾	 The completion of a BIA is a key step in the contingency planning process, as it helps
      identify and prioritize critical information technology systems and components.
      According to NIST, the BIA enables the organization to fully characterize the system
      requirements, processes, and interdependencies and use this information to determine
      contingency requirements and priorities. The BIA purpose is to correlate specific system
      components with the critical services that they provide, and based on that information, to
      characterize the consequences of a disruption to the system components. Results from
      the BIA should be appropriately incorporated into the analysis and strategy development
      efforts for the organization’s contingency planning and business continuity strategies.

   ¾	 Contingency plan testing is a critical element of a viable contingency capability, and each
      element of the contingency plan should be tested, first individually and then as a whole,
      to confirm the accuracy of individual recovery procedures and the overall effectiveness of
      the plan. Additionally, it states that this testing should occur at least annually and when
      significant changes occur to the IT system, supported business process(es), or the IT
      contingency plan.

   ¾	 Common fire prevention measures include water sensors in the computer room ceiling
      and floor.

•	 NIST SP 800-53, Recommended Security Controls for Federal Information Systems guides
   that Federal agencies should:

   ¾	 Develop and keep current lists of personnel with authorized access to facilities containing
      information systems and issue appropriate authorization credentials (e.g., badges,
      identification cards, smart cards).

   ¾	 Assign designated officials within the organization to review and approve access lists and
      authorization credentials per a defined time period, but at least annually.

   ¾	 Centrally monitor real-time intrusion alarms and surveillance equipment, and employ
      automated mechanisms to ensure potential intrusions are recognized and appropriate
      response actions initiated.

   ¾	 After an emergency-related event, restrict reentry to facilities to authorized individuals
      only.

   ¾	 Authenticate visitors (including government contractors) prior to authorizing access to
      facilities or areas.

   ¾	 Maintain a visitor access log that includes: (i) name and organization of the person
      visiting; (ii) signature of the visitor; (iii) form of identification; (iv) date of access; (v)
      time of entry and departure; (vi) purpose of visit; and (vii) name and organization of
      person visited. NIST further guides that designated officials within the organization
      should review the access logs.

                                                   21

   ¾	 Consider surveillance and security guards as key physical access controls.

•	 Office of Management and Budget (OMB) Circular Number A-123, Management
   Accountability and Control, requires that accountability for the custody and use of resources
   be assigned and maintained.

•	 OMB Circular A-130, Management of Federal Automated Information Resources, guides
   that agencies shall:

   ¾	 Implement and maintain a program to assure that adequate security is provided for all
      agency information collected, processed, transmitted, stored, or disseminated in general
      support systems and major applications.

   ¾	 Establish policies and assign responsibilities to assure that appropriate contingency plans
      are developed and maintained by end users of information technology applications. The
      intent of such plans is to assure that users continue to perform essential functions in the
      event their information technology support is interrupted.




                                               22

                                       Appendix B 

                              Applications Reviewed 

                                                                                      Major
        Application     Program Office                   Description                              Risks
                                                                                    Application
1.   BAS (Budget        Office of the   BAS is the central Agency system               Yes        High
     Automation         Chief Financial used to integrate strategic planning,
     System)            Officer (OCFO) annual planning, budgeting, and
                                        financial management. The system
                                        contains resource (dollars and FTE),
                                        planning and performance data. The
                                        system supports budget formulation,
                                        annual planning and operating plan
                                        development. BAS links to the IFMS
                                        to send the Agency’s Initial Operating
                                        Plan in the format of IFMS
                                        Appropriation & Apportionment (AA)
                                        documents. BAS receives from IFMS
                                        the revised operating plan and actual
                                        obligations/outlays data.
2.   CERCLIS            Office of         The Agency’s system for supporting           Yes        High
     (Comprehensive     Superfund         the Superfund program. CERCLIS
     Environmental      Remediation and   receives downloads of IFMS
     Response,          Technology        Superfund financial transactions. This
     Compensation and   Innovation        is not an OCFO application and no
     Liability          (OSRTI)           information from this system is sent to
     Information                          the Integrated Financial Management
     System)                              System (IFMS).
3.   CPS (Contracts  Office of the        CPS is an NCC mainframe application          Yes        High
     Payment System) Chief Financial      with ADABAS database. The
                     Officer              application tracks and pays EPA
                                          contractors. This application is a
                                          subscriber to the NCC Disaster
                                          Recovery Program.
4.   MARS              Office of the      MARS provides standard and ad hoc            Yes        High
     (Management and Chief Financial      financial reports based on data from
     Accounting        Officer            IFMS. The source for the MARS data
     Reporting System)                    is the IFMS journal. It is run out of
                                          the NCC and is an
                                          ADABAS/Mainframe application.




                                                   23

                                                                                        Major
         Application     Program Office                    Description                              Risks
                                                                                      Application
 5.   IGMS (Integrated   Office of         IGMS is the Agency’s system for the           Yes        High
      Grants             Administration    processing and management of all forms
      Management         and Resources     of assistance agreements with State and
      System)            Management        local governments, non-profit
                         (OARM)            organizations, educational institutions,
                                           and individuals, as well as interagency
                                           agreements with other Federal agencies.
                                           IGMS receives commitment data from
                                           IFMS. This Lotus Notes application is
                                           owned by the Grants Department.

 6.   OMIS (Office of    Office of         OMIS is comprised of five                     Yes        High
      Research and       Research and      independent modules. Only the
      Development        Development       Integrated Resource Management
      Management         (ORD)             System (IRMS) interface with IFMS.
      Information                          The real-time interfaces are used to
      System)                              electronically transmit transactions
                                           (commitment and reprogramming) to
                                           IFMS. Extract files are created after
                                           the nightly IFMS close to bring down
                                           to IRMS the approvals/disapprovals of
                                           the reprogramming transactions as
                                           well as operating plan, commitments,
                                           obligations, and expenditures from the
                                           Suballowance Spending Control
                                           Inquiry Table (SASP) and General
                                           Ledger tables.
7.    TM+ (Travel        Office of the     TM+ is a COTS product used to                 Yes        High
      Manager +)         Chief Financial   streamline and fully automate the
                         Officer           Agency’s travel process. TM+ sends
                                           Travel Order (TO) and Travel
                                           Voucher (TV) documents to IFMS.
                                           TM+ automates the travel process for
                                           EPA. It was developed by Gelco and
                                           runs on its own servers. The
                                           application will be phased out in
                                           September 2006 when E-Travel (a.k.a.
                                           GovTrip) is implemented. EPA had
                                           one of three choices in the
                                           replacement of TM+ and opted for the
                                           Northrop Grumman GovTrip web-
                                           based application.




                                                     24

                                                                                    Major
        Application    Program Office                  Description                              Risks
                                                                                  Application
8.   WCF (Working     Office of         WCF Service Providers generate               Yes         High
     Capital Fund)    Environmental     monthly entries to record depreciation,
                      Information       cost transfers, and application of
                      (OEI)             Overhead and G&A as well as
                                        customer billing information. They
                                        transmit that data automatically via an
                                        interface file containing Asset
                                        Voucher (AV)/Month End Adjustment
                                        Voucher (MV), and Project Charge
                                        (CH) documents to IFMS. All
                                        information is placed on the IFMS
                                        SUSF table for the RTP, FMC staff to
                                        review and process online or through
                                        batch mode. Any errors found are
                                        researched and corrected prior to
                                        processing. WCF is run by the Office
                                        of Technology Operations and
                                        Planning (OTOP) group. Some
                                        servers are maintained at RTP,
                                        however OCFO does not know what is
                                        contained on them. Regular backups
                                        are performed for the application.
9.   IFMS (Integrated Office of the     IFMS is a mainframe application              Yes         High
     Financial        Chief Financial   hosted at the NCC. It is the EPA’s
     Management       Officer           core financial system and does
     System)                            subscribe to Disaster Recovery
                                        services at the NCC.
10. People Plus       Office of the     EPA’s new payroll processing system.         Yes         High
                      Chief Financial   People Plus is a co-owned system
                      Officer and the   between the OCFO and the OHROS.
                      Office of Human   The application is hosted at the NCC
                      Resources and     on a UNIX machine.
                      Organizational
                      Services
                      (OHROS)
11. Bankcard          Office of the     Bank Card Interface System was                No        Medium
                      Chief Financial   developed to properly allocate funds
                      Officer           in paying for items purchased with
                                        credit cards. The daily files of
                                        transactions are maintained on an
                                        Oracle Database with an upload to the
                                        financial statements. The application
                                        has a web interface to allow users the
                                        ability to see payments and
                                        obligations.

                                                 25

                                                                                Major
       Application   Program Office                  Description                            Risks
                                                                              Application
12. Financial Data   Office of        FDW houses periodic snapshots of           Yes        High
    Warehouse        Financial        IFMS data to provide reporting
    (FDW)            Management and   capability. The FDW offers standard
                     Office of        reports from IFMS, EPAYS, CPARS
                     Financial        and CPS. Access to FDW is
                     Services         controlled by FSD.

                                      The application is hosted at NCC on a
                                      Unix NIX Digital machine with
                                      Oracle 8.1 database tables.




                                               26

                                  Appendix C
                                   Distribution

Office of the Administrator
Director, Office of Technology Operations and Planning
Director, Office of Administration and Resources Management at RTP
Director, Technical Information Security Staff
Director, National Computer Center
National Computer Center Security Operations Manager
Agency Follow-up Coordinator
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Environmental Information
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Audit Follow-up Coordinator, Office of Research and Development
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Association Administrator for Public Affairs
Inspector General




                                            27

                                    Appendix D

                  Office of Environmental Information 

Draft Report Response from the Office of Environmental Information (OEI)

                                       October 21, 2005

MEMORANDUM

FROM:         Kimberly T. Nelson /s/
              Assistant Administrator and Chief Information Officer

TO:           Rudolph M. Brevard
              Acting Director, Business Systems Audits
              Office of Inspector General

       Thank you for the opportunity to respond to the draft audit report on Information System
Service Contingency and Physical Access Controls. We appreciate your efforts to hold
informational meetings to ensure clarity of your findings and recommendations and to give us an
opportunity to recommend revisions.

        As we discussed at the informational meetings on October 4, 2005, we have concerns
about some of the findings and recommendations regarding the physical access and information
system service contingency findings. We conveyed these concerns to your staff at the October 4
meeting and appreciate their receptivity to ensuring that the findings are accurate and that the
final recommendations will effectively address real deficiencies.

        Our detailed comments are attached. Please feel free to contact George Bonina, Director
of the Technology and Information Security Staff and Chief Information Security Officer at 202
566-0304, if you have any questions or need additional information.

Attachment
cc:   	Linda Travers
      Mark Day
      Myra Galbreath
      George Bonina
      Robin Gonzalez
      John Gibson

Physical Access

Contractor Access Badges



                                               28

OEI agrees with the finding that 29 badges were identified as contractor temporary badges not
assigned to a specific individual. The NCC developed a procedure for issuing contractor
temporary badges as a result of a prior audit finding that the data center had too many people
with permanent access. Consequently, NCC issues contractor temporary badges for personnel
whose data center access frequency is less than three times per week.

OEI disagrees with the finding that these contractor temporary badges have no names associated
with the badges. Unescorted temporary badges are only assigned if the individual’s name
appears on a predefined controlled access list, maintained in the data center. As each temporary
badge is issued, the individual’s name is entered in a visitor access control log.

OEI disagrees with the finding that the temporary badges are not kept in EPA facilities. All
badges are maintained at the NCC.

OEI disagrees with the finding that there is no formal process for identifying the contractor using
the badge. The formal process for issuing and documenting temporary badges is in place as
described above.

OEI disagrees with the finding that contractors do not identify specific individuals to support the
NCC in cases of each emergency, and that the NCC issues generic access badges to the
contractor companies rather than to specific individuals. Any contractor who does not currently
have a permanently issued badge or whose name does not exist on the pre-defined access control
list is required to have an escort during their presence in the data center. Each of these
individuals must be identified by the vendor prior to their arrival.

OEI disagrees with recommendation (1); given the existence of the current process that explicitly
associates all badges and access to the NCC with individual identification.

OEI agrees with recommendation (2) to conduct more frequent reviews of contractor access to
the data center.

NCC Data Center Door Alarm

OEI agrees with this recommendation.

Local Alternate Processing Site Access

OEI will work with OARM to assess the risks, costs and benefits to make a risk-based decision
on additional controls.

Service Continuity/Contingency Planning

Completion of the BIA



                                                29

OTOP conducted training on contingency planning at the 2004 Security and Operations
Conference. Staff from OTOP’s Technology and Information Security Staff (TISS) provide
support to system owners on an ongoing basis.

Since there is already a well-documented EPA requirement to conduct BIAs, the
recommendation to document that requirement (18) is not necessary.

The recommendation to conduct additional training on contingency planning (17) is not
necessary due to the clarity of the NIST document, OEI’s supplemental guidance, the prior
training conducted by OTOP and the availability of TISS support to program offices.

OEI agrees with the recommendation that the NCC conduct a BIA (19).

OEI disagrees with the recommendation to conduct a forum with EPA program offices
leadership to update/modify current contingency planning and business continuity processes
(19). This audit contains no finding that would be addressed through this recommendation.

Application Contingency Plan Weaknesses

OEI Response

Most of the recommendations appear to be based on an incorrect conclusion that problems with
individual system contingency plans are the result of a systemic problem with the Agency-wide
contingency planning program. As noted above, it appears that the auditors were not aware of the
Agency procedures and guidance on contingency planning. OEI believes that it is inappropriate
to place the responsibility for correcting deficiencies in program office system contingency plans
on the OTOP Director. Placing this responsibility on the OTOP Director is in contradiction to
FISMA which places the responsibility for system security on program officials for systems
under their control. Therefore, OEI believes that recommendations (24) and (26) thru (30) should
be directed to the Assistant Administrator of the appropriate office.

OEI believes that the recommendation to analyze all contingency plan test results, adjust
contingency plans and send a “lessons learned” report to senior management (25) is unnecessary
because there is nothing in the audit findings to support a conclusion that there is a systemic
problem to be addressed through this recommendation. Also, consistent with FISMA, analyzing
test results and adjusting plans is the responsibility of the program officials.

For reasons noted above, OEI disagrees with the recommendation to provide consistent training
to all EPA application owners (20).

It is not clear why the recommendation to establish monitoring procedures to ensure that
application contingency plans are tested at least once every year or more often (21) is included
since the findings identify only one plan that may not have been tested. This recommendation is
also unnecessary because OEI already has such a procedure in place. OEI uses the ASSERT
system to track the status of contingency plan testing. This percentage of systems with tested
contingency plans is measured on the E-gov scorecard of the President’s Management Agenda as
                                               30

well as an OMB performance measure that is reported quarterly to OMB. For the FY 2005
Annual FISMA report to OMB, EPA reported that 97% of the Agency’s major applications and
general support systems had tested contingency plans. OIG auditors have access to ASSERT and
can verify this information.

OEI agrees with recommendations (22) and (23).

Authorization to Move Tapes to Alternate Storage Facility

OEI Response:

OEI will document procedures to authorize movement of backup tapes from NCC to a local
storage facility.

Environmental Controls

OEI Response:

OEI agrees with recommendation (32) to address the risks of food and drinks in the NCC data
center.

OEI will work with OARM to assess the risks, costs and benefits to make a risk-based decision
on additional controls (33).

OARM Response:

OARM will respond directly to the IG in a separate document.




                                              31

                                     Appendix E
 Office of Administration and Resources Management
Draft Report Response from the Office of Administration and Resources Management at
RTP (OARM)

                                        October 25, 2005

MEMORANDUM

SUBJECT:	 OARM Response to Draft Audit Report: Audit of Information System Service
          Contingency\Continuity and Physical Access Controls of EPA’s Financial and
          Mixed-Financial Systems that Reside at Research Triangle Park
          Assignment/Project No: 2004-001383

FROM:	         William G. Laxton, Director /s/
               Office of Administration and Resources Management, RTP (C604-02)

TO:	           Vincent Campbell, Auditor/Project Officer
               Office of Inspector General (2421T)


        The enclosed report addresses the recommendations identified in the original audit report
for OARM-RTP action. Our reply addresses each recommendation for Chapters 2 and 3. The
point of contact for Chapter 2, Physical Access, is Sam Pagan, (919) 541-5001; for Chapter 3,
Service Continuity/Contingency Planning, the contact point is Alex Montilla (919) 541-0324.

Attachment




                                               32

Chapter 1: Overview

No findings or recommendations requiring OARM lead


Chapter 2: Physical Access

With regard to: Evacuation Re-Entry:

Recommendation 8: Coordinate the                         Response: Procedures are currently being
implementation of detailed policies and                  written requiring all employees to badge in
procedures regarding the reentry of staff to the         upon reentry into the buildings after an
campus and buildings after an event that would           emergency evacuation.
trigger an emergency evacuation. (from page 5
of draft report)

Recommendation 9: Provide additional                     Response: Employees at RTP have been
security training to employees/contractors               reminded of these procedures through various
addressing good physical security practices;             all hands memos informing them of a
such as challenging persons whom are                     heightened security posture and asking them to
attempting to enter the building without an              not allow others to piggyback in to the building
EPA badge. (from page 5 of draft report)                 once one person badges through a door. We
                                                         will continue to inform our employees of these
                                                         procedures through other means of
                                                         communication.

With regard to: RTP Computer Room Visitor Identification:

Recommendation 10: Coordinate with the                   Response: On 21 July 2005 OARM posted
applicable program offices to consistently               access logs in each of the four computer rooms
enforce policies and procedures that would               (C160, C131, C240 and N147) to include the
require all visitors entering the computer room          main distribution facility (C160A). The policy
in building C, to sign a visitor log which               was disseminated to system administrators via
should be maintained and kept on file. (from             email directing that all visitors escorted into
page 6 of draft report)                                  server rooms and the MDF sign in and out of
                                                         the rooms accordingly. Escorts are required to
                                                         record their identification badge number by
                                                         each of their visitor's information.

Recommendation 11: Ensure the consistent                 Response: Though this recommendation is
enforcement of policies and procedures that              made to OARM, the silo room in question is
would require all visitors entering the silo             operated by the NCC. This recommendation
room at the local storage facility to sign a             should be addressed by OEI-OTOP. OARM has
visitor log which should be maintained and               coordinated this finding with the appropriate
kept on file. (from page 6 of draft report)              NCC personnel and has provided an electronic
                                                         copy of its computer room access log
                                                   33

                                                        accordingly. OARM security will coordinate
                                                        with the Director of OTOP to establish a
                                                        procedure that would require everyone entering
                                                        the silo room to sign a visitor log.

With regard to: Campus Visitor Identification:

Recommendation 12: Issue guidance to remind             Response: Security into the RTP campus is
the security guards at RTP campus entrances to          based on a two tiered system. The first tier is a
inspect the identification of all vehicles and          preliminary check at the gates. This check
individuals entering the campus. (from page 7           makes sure that each vehicle entering the RTP
of draft report)                                        campus has an authorized vehicle pass. Visitors
                                                        are issued a one day vehicle pass upon
                                                        presenting proper identification. A more
                                                        thorough security check is conducted during our
                                                        second tier check. Each visitor is checked at
                                                        the entrance to each of our main buildings.
                                                        Visitors must go through a magnetometer and
                                                        show proper identification prior to gaining
                                                        entrance to our buildings.

Recommendation 13: Ensure that guards check             Response: Our main security check is
that the removable parking passes correspond            conducted at the entrance to each one of our
to the appropriate vehicle/individual. (from            buildings and not at the gates. The main reason
page 7 of draft report)                                 is that the RTP campus has a very porous
                                                        perimeter. The gates are the principle way to
                                                        get into the campus but there are many ways to
                                                        enter through the wooded areas surrounding the
                                                        campus. Because of this, we conduct our
                                                        personnel security checks at the entrance to our
                                                        buildings. Delivery trucks are stopped by
                                                        bollards and another security gate inside the
                                                        main campus. This gate is also manned by a
                                                        security guard. Delivery trucks are not allowed
                                                        through the bollards until positive identification
                                                        of the driver and the program expecting the
                                                        delivery is made.
Recommendation 14: Ensure that procedures               Response: Various checks have been conducted
are consistently followed for verifying visitor         during conferences held at RTP to assure the
identification. (from page 7 of draft report)           correct visitor procedures are followed.

Recommendation 15: Coordinate with other                Response: Coordination has been done via
RTP program office to provide additional                various all hands memos informing them of a
security training to employees/contractors              heightened security posture and asking them to
addressing good physical practices; such as             not allow others to “piggyback” into the
                                                  34

challenging persons whom are attempting to               building once one person badges through a
enter the building without a RTP badge. (from            door. We will continue to inform our
page 7 of draft report)                                  employees of these procedures through other
                                                         means of communication.

With regard to the alternate processing site:

Recommendation 16: We recommend that the                 Response: The Physical Security Assessment of
Director of OTOP and Director of OARM at                 the Research Triangle Park’s (RTP) Main
RTP coordinate to develop a strategic plan to            Campus Facility done in 2004 identified the
deploy security controls at the alternate                local processing site facility as a “LOW Threat
processing site facility in the event of an              Level Facility”. Based on this finding, we
emergency. Alternatively, the Director OTOP              decided to mitigate this risk by including some
and the Director of OARM should coordinate               of these corrections in a future lease agreement.
to accept the security risk of the facility, and         Additionally, we decided to “accept the risk” of
document the risk in the facility security risk          not having a visitor control system in place.
assessment. (from page 8 of draft report)                One of the many functions done at local
                                                         processing site is the initial drop-off of all
                                                         incoming mail and packages into our facilities.
                                                         These items are then x-rayed at the warehouse
                                                         before they are delivered to our other facilities
                                                         by our contractor. Furthermore, deliveries to
                                                         the local processing site are made by different
                                                         companies and drivers each day. We chose to
                                                         accept this risk in order to protect our main
                                                         facilities from vulnerabilities from unknown
                                                         deliveries.



Chapter 3: Service Continuity/Contingency Planning

With regard to: Environmental Controls:

Recommendation 33: Install the equipment to              Response: In FY 2004 OARM installed water
implement necessary detective and preventive             detection sensors in all computer rooms (C160,
controls such as the identification of shut off          C131, C240 and N147) as well as the main
valves for plumbing lines and water sprinklers,          distribution facility (C160A). Materials have
installation of water detection equipment, and           been purchased and procedures are in place to
the development of water emergency                       drape plastic over the computer cabinets in each
procedures that deal with plumbing line                  server room should there be a water emergency.
leakage and premature water release from                 OARM has installed a redundant Storage Area
sprinklers. Alternatively, compensating                  Network that performs synchronous mirroring
controls and related procedures, such as                 between appliances in Building C and the NCC.
periodic monitoring of the computer room by              OARM has offered this service to OCFO and
security guards, should be implemented. (from            the other campus program offices as a means of
                                                   35

page 16 of draft report)         mitigating this water incident vulnerability.
                                 The OARM LAN Manager monitors the
                                 computer rooms through physical inspection of
                                 each area. He tracks UPS Load, Humidity
                                 Levels and Temperature as well as looks for
                                 leaks in ceiling tile. The O&M contractor is
                                 advised of any water present beneath the raised
                                 floors and advises the OARM LAN Manager
                                 accordingly. The OARM LAN Manager does
                                 not recommend that Security Guards
                                 (contractors) be allowed into computer rooms
                                 or the MDF unescorted.

                                 OIG (Cheryl Reid) visited computer rooms in
                                 building C to verify that water detectors are in
                                 fact installed beneath the raised floor. She has
                                 seen the detectors that have been installed and
                                 to the best of our knowledge we have satisfied
                                 that portion of the recommendation. She
                                 recommended that procedures be posted in each
                                 room outlining our response actions to a water
                                 leak incident. We have submitted and received
                                 5 poster boards containing such procedures for
                                 each computer room. Furthermore, we have
                                 submitted the work order to identify the shut off
                                 valves for the water sprinklers and plumbing
                                 lines. The O&M contractor (CHI) is
                                 responsible for those systems and would shut
                                 off the appropriate valves in the event of any
                                 water leaks. Finally, we provided OIG (Cheryl
                                 Reid) a copy of reports substantiating our
                                 periodic monitoring (weekly) of each computer
                                 room. The report substantiates our response
                                 that the computer rooms are being actively
                                 monitored. In short, we have water detectors in
                                 each computer room, we have posted
                                 compensating procedures, as well as, perform
                                 active monitoring of the computer rooms.




                           36

                                     Appendix F
                Office of Research and Development
Draft Report Responses from the Office of Research and Development (ORD)

                                       November 4, 2005


MEMORANDUM

SUBJECT:       ORD Response to Draft OIG Report, Audit of Information System Service
               Contingency/Continuity and Physical Access Controls of EPA=s Financial and
               Mixed-Financial Systems that Reside at Research Triangle Park,
               No. 2004-001383

FROM:          George Gray /s/ Lek Kadeli for
               Assistant Administrator (8101R)

TO:            Rudolph M. Brevard
               Acting Director, Business Systems Audits (2421T)

Purpose

      The purpose of this memorandum is to provide the Office of Research and
Development=s (ORD) comments on the subject draft OIG report.

Background/Discussion

       The draft report dated September 13, 2005, noted several areas which needed
improvement. ORD took a proactive approach and immediate action to remedy those areas.
Specifically, the ORD Management Information System (OMIS) Contingency Plan (attached)
was revised as follows: (1) Appendix A, Personnel Contact List, was updated to include all
business, home, and cell phone numbers; and (2) Appendix D, Disaster Recovery Testing, was
added to include the type of test, test date, and the result. The revised OMIS Contingency Plan,
dated September 26, 2005, was provided to the Office of Environmental Information on
October 3, 2005 and to your staff on October 14, 2005.

       It should be noted that the OMIS Contingency Plan clearly states that the database is
exported nightly from Research Triangle Park, NC to our backup servers in Washington, DC. If
the contingency plan is put into effect, the Washington, DC servers would be converted to our




                                               37

production servers. We have successfully tested this Plan with the procedures outlined in
Appendix C and documented it in Appendix D: Disaster Recovery Testing.

        Detailed comments are attached that we believe will sharpen the quality and accuracy of
the draft report. Should you or your staff have questions or require further information, please
have them contact Cheryl Varkalis at 202-564-6688.

Attachments (2)

cc: 	Lek Kadeli
    Jack Puzak
    Alice Sabatini
    Amy Battaglia
    Jorge Rangel
    Tom Tracy
    John Sykes
    Cheryl Varkalis




                                               38

                                    ORD Comments
                                           on
                                OIG Draft Audit Report
            Audit of Physical Access and Service Continuity/Contingency Controls for
Financial and Mixed-Financial Systems located at the Environmental Protection Agency=s
                       (EPA=s) Research Triangle Park Campus


1. On page 12 , paragraph 2, line 1, the draft report states:

AIn reviewing the Office of Research and Development Management Information System
(OMIS) contingency plan, we noted that the call tree within the contingency plan contains only
business phone numbers for essential personnel, and does not include the information that should
be relayed to critical personnel. In addition, we noted that the recovery operations sections of the
contingency plan does not adequately document the steps necessary to restore operations, and it
does not appear that the contingency plan has been tested.@

RESPONSE: We request this paragraph be deleted from the report, or the report adjusted to
reflect actions already taken by ORD.

Discussion: Appendix A: Personnel Contact List, has been updated to include all business, home,
and cell phone numbers. The steps necessary to restore operations are contained in Appendix C:
OMIS Technical Disaster Recovery Procedures, which details all of the steps necessary to restore
operations. This has been tested and noted in OMIS Contingency Plan Appendix D: Disaster
Recovery Testing.

2. On page 14, Recommendation 29, the draft report states:

AWe recommend that the Director of OTOP work collaboratively with the Office of Research
and Development to revisit:

29) OMIS contingency plan and ensure that the call tree within the contingency plan contains
home phone numbers and cell phone numbers for essential personnel, and it also contains the key
information that should be relayed to critical personnel. Further, the OMIS contingency plan
should document the steps necessary to restore operations, and should also be tested on a regular
basis.@

RESPONSE: We request this paragraph be deleted from the report, or the report adjusted to
reflect actions already taken by ORD.




                                                 39

Discussion: Section 3.3, Activation, of the OMIS Contingency Plan, states the key information that
is relayed to critical personnel. The steps to restore operations are documented in Appendix C.
OMIS Disaster Recovery Testing is included in Appendix D. The most recent test was performed
in August 2005; testing will be performed on an annual basis.

3. On page 21, Appendix B, item 6, the draft report states:

AOMIS is comprised of six independent modules. Only the Integrated Resource Management
System (IRMS) and the Laboratory Implementation Plan (LIP) interface with IFMS. The real-time
interfaces are used to electronically transmit transactions (commitment and reprogramming) to
IFMS. Extract files are created after the nightly IFMS close to bring down to IRMS the
approvals/disapprovals of the reprogramming transactions as well as the operating plan,
commitments, obligations, and expenditures from the Suballowance Spending Control Inquiry
Table (SASP) and General Ledger tables.

RESPONSE: We request the following change to this portion of the draft report:

OMIS is comprised of five independent modules. Only the Integrated Resource Management
System (IRMS) interfaces with IFMS. The real-time interfaces are used to electronically transmit
transactions (commitment and reprogramming) to IFMS. Extract files are created after the nightly
IFMS close to bring down to IRMS the approvals/disapprovals of the reprogramming transactions
as well as the operating plan, commitments, obligations, and expenditures from the Suballowance
Spending Control Inquiry Table (SASP) and General Ledger tables.

Discussion: The Laboratory Implementation Plan (LIP) has been retired and is no longer in production.
Thus, there are only five independent modules. References to the LIP should be removed.




                                                  40

                                     Appendix G 

        Office of Solid Waste and Emergency Response 


Draft Report Response from the Office of Solid Waste and Emergency Response (OSWER)

                                       November 11, 2005


MEMORANDUM


SUBJECT: 	     OSWER Response to Draft Audit Report “Audit of Information System Service
               Contingency\Continuity and Physical Access Controls of EPA’s Financial and
               Mixed-Financial Systems that Reside at Research Triangle Park”
               Assignment/Project No: 2004-001383

FROM:	         Barry N. Breen/s/
               Deputy Assistant Administrator

TO: 	          Rudolph M. Brevard
               Acting Director, Business Systems Audits
               Office of Inspector General

       Thank you for the opportunity to respond to the draft audit report on Information System
Service Contingency and Physical Access Controls. We appreciate your efforts to hold
informational meetings to ensure clarity of your findings and recommendations and to give us an
opportunity to recommend revisions. Our comment on the OIG recommendation is as follows:

OIG Recommendation

        We recommend that the Director of OTOP work collaboratively with the Office of Solid
Waste and Emergency Response to revisit CERCLIS contingency plans and ensure that it
identifies critical resources; ensure that the recovery test addresses all elements of application
recovery; and ensure that contracts are in place for the restoration of the application.

OSWER Response

       We agree with the Office of Environmental Information’s (OEI) October 21, 2005
response regarding the recommendation. Over the past year, the Office of Superfund
Remediation and Technology Innovation (OSRTI) has worked closely with RTP to centralize the
CERCLIS Regional databases. Since then, the Contingency Plan for CERCLIS has been revised.
Furthermore, a coordinated effort with RTP has taken place to perform a table-top review of the
                                                41

CERCLIS application. This review was conducted in September 2005. In complying with
Agency standards, OSRTI has used the two NIST documents which focus specifically on COOP
Guidance. The first Document is 800-84 Guide to Single-Organization IT Exercises describes
the procedures for the table-top review. The second guide, NIST 800-34, Contingency Planning
Guide for Information Technology Systems describes in detail how to write a COOP Plan.

       Please feel free to contact Robert King at 703.603.8792 or William Bushee at
703.603.8963, if you have any questions or need additional information.




                                              42

                                     Appendix H 

                 Office of the Chief Financial Officer 

Draft Report Response from the Office of the Chief Financial Officer (OCFO)

                                        October 13, 2005


MEMORANDUM


SUBJECT:       Office of the Chief Financial Officer (OCFO) Response to the Office of Inspector
               General‘s (OIG) Information Technology Position Paper #2 – Internal Control –
               Compliance with Federal Guidelines, Fiscal Year 2005 Financial Statement Audit

FROM:          Michael W. S. Ryan
               Deputy Chief Financial Officer /s/

TO:            Rudy Brevard
               Acting Director, Business Systems Audits

       We appreciate the opportunity to provide written comments on the subject Position
Paper. The OCFO remains firmly committed to securing its systems and data in a cost effective
manner and in accordance with Federal guidance, EPA policy, and best practices.

       If you or your staff have any questions or need additional information concerning our
response to the subject Position Paper, contact Krista Mainess, Director of the Office of Program
Management, at 202-564-5903.


cc:    P
       	 aul Curtis, OIG
       Bill Samuel, OIG




                                               43

OIG recommendations and corresponding OCFO responses are as follows:

OIG Recommendation #1: Responsible office directors provide training to all application
owners on the importance of developing, maintaining, and testing contingency plans in
accordance with EPA and NIST guidelines and ensure the plans clearly define necessary
recovery steps for each application.

OCFO Response to Recommendation #1:
In accordance with EPA requirements, OCFO mandates role-based training for employees with
significant security responsibilities, which includes application owners. In addition, beginning in
December 2005, the OCFO will conduct quarterly IT Security Council meetings for application
owners.

OIG Recommendation #2: Director, Office of Budget revise the BAS contingency plan to
contain (1) complete contact information for key personnel and (2) alternate processing and
return to normal operations procedures.

OCFO Response to Recommendation #2:
We will include additional contact information for key personnel in the BAS contingency plan.
The full record of contact information will include the individual’s team position, name, home,
work, and pager numbers, and e-mail address. In addition, we will clearly state the procedures
for alternate processing and returning to normal operations.

OIG Recommendation #3: Director, Office of Financial Services revise the CPS contingency
plan to identify critical recovery requirements and alternate processing procedures.

OCFO Response to Recommendation #3:
The critical recovery requirements and alternate processing procedures for CPS are provided in
the NCC/CPS Critical Applications Disaster Recovery Plan (Sixth Edition, Revision 6-5), dated
February 18, 2005.

We are providing the following document references for your consideration.
  • Critical Hardware:             Appendix C
  • Critical Software:             Appendix D
  • Telecommunications:            Section 4.6.9.2
  • Facilities:                    Section 5.0


OIG Recommendation #4: Director, Office of Financial Services (OFS) revise contingency
plan for People Plus to (1) contain primary and secondary personnel information consistent with
the Critical Applications Disaster Recovery Plan and (2) clearly describe which plan takes
precedence during the recovery process.

OCFO Response to Recommendation #4:
The primary and secondary contacts for PeoplePlus are contained in both the OCFO COOP and
Critical Applications Disaster Recovery Plan. The OCFO COOP takes affect if a failure occurs
                                                44

in the DC area, in accordance with the Agency’s overall contingency plan. On the other hand,
the Critical Applications Disaster Recovery Plan takes affect if a failure occurs at RTP. We will
ensure the PPL contingency plan clearly states the order of precedence between itself and the
Critical Applications Disaster Recovery Plan.

OIG Recommendation #5: Director, Office of Financial Management (OFM) revise
contingency plans, for all of their applications not subscribing to the NCC DRS plan (e.g.
Financial Data Warehouse), in accordance with relevant Federal and EPA criteria and best
practices.

OCFO Response to Recommendation #5:
We are in the process of subscribing to the NCC Disaster Recovery Service for the Financial
Data Warehouse. In addition, we will revise the contingency plan for SCORPIOS in accordance
with relevant Federal and EPA criteria and best practices.




                                               45

